                                                   2007 Financial Statements



                                                   JAMES MADISON NATIONAL COUNCIL FUND                                  JAMES MADISON NATIONAL COUNCIL FUND
                                                   Statement of Financial Position                                      Statement of Activities
                                                   SEPTEMBER 30, 2007                                                   FOR THE FISCAL YEAR ENDED SEPTEMBER 30, 2007


                                                   ASSETS                                                               CHANGES IN UNRESTRICTED NET ASSETS
                                                   Cash                                              $        24,751    Revenues
                                                   Investments: (Note 2)                                                Membership contributions                          $     1,130,950
                                                     U.S. Treasury Market Based                                         Miscellaneous gifts                                        36,185
                                                     Securities                                            3,685,083    Temporarily restricted donations                           79,000
                                                   Growth and Income Pool                                    925,011
                                                                                                                        Interest                                                  191,783
                                                   Total investments                                       4,610,094
                                                                                                                        Net unrealized gain and realized gain
                                                   Receivables:                                                         on investments (Note 2)                                   131,295
                                                     Pledges (Note 3)                                        880,740    Imputed financing for cost subsidies
                                                     Accrued interest                                           6,706   (Note 5)                                                   31,921
                                                   Total receivables                                         887,446    Dividends                                                  13,452
                                                   Total assets                                      $     5,522,291    Net assets released from restrictions                     185,851
                                                                                                                        Total revenues                                         1,800,437
                                                   LIABILITIES AND NET ASSETS
                                                   Accounts payable                                  $       277,661    Expenses (see Schedule B)
                                                   Accrued payroll and annual leave                           48,578    Personnel costs                                          683,654
                                                   Total liabilities                                         326,239    Travel and transportation and
                                                                                                                        subsistence/support persons                                52,211

                                                   Net assets (Note 4)                                                  Other services                                             66,451

                                                     Unrestricted-Undesignated                             2,060,104    Books and library materials                                81,100

                                                     Unrestricted-Council designated                                    Exhibit opening events, receptions,
                                                     for projects                                            180,441    and Madison Council meetings                              198,637

                                                     Temporarily donor restricted                                       Contractual and personnel services                       752,906
                                                     for projects                                          2,955,507    Office supplies, printing and materials                     17,244
                                                   Total net assets                                         5,196,052   Total expenses                                          1,852,203
                                                                                                                        Decrease in unrestricted net assets                       (51,766)
                                                   Total liabilities and net assets                  $     5,522,291
                                                                                                                        CHANGES IN TEMPORARILY
                                                   These financial statements should be read only in connection with    RESTRICTED NET ASSETS
                                                   the accompanying notes to financial statements.                      Contributions                                            268,168
                                                                                                                        Net assets released from restrictions
                                                                                                                        (185,851)
JAMES MADISON COUNCIL OF THE LIBRARY OF CONGRESS




                                                                                                                        Increase in temporarily restricted
                                                                                                                        net assets                                                 82,317
                                                                                                                        Increase in net assets                                     30,551
                                                                                                                        Net assets at beginning of year                         5,165,501
                                                                                                                        Net assets at end of year                         $    5,196,052


                                                                                                                        These financial statements should be read only in connection with
                                                                                                                        the accompanying notes to financial statements.




26
JAMES MADISON NATIONAL COUNCIL FUND

Statement of Cash Flows
FOR THE FISCAL YEAR ENDED SEPTEMBER 30, 2007


Cash flows from operating activities:
  Donations Received                           $ 1,344,590
  Interest Received                                  182,362
  Cash paid to others                              (1,230,888)
  Cash paid to employees                            (669,198)
  Net cash provided by (used by)
  operating activities                         $    (373,134)


Cash flows from investing activities:
  Investment in U.S. Treasury
  Market Based Securities                      $ (2,543,520)
  Investment in U.S. Treasury
  Permanent Loan                                           0
  Redemption of Investment in
  U.S. Treasury Market Based Securities            2,838,437
  Redemption of Investment in
  U.S. Treasury Permanent Loan                             0
  Net cash provided by (used by)
  investing activities                         $    294,917

Net Increase (decrease) in Cash                      (78,217)

Cash at beginning of year                            102,968

Cash at end of year                            $      24,751

Reconciliation of Changes in Net Assets
to Net Cash From Operating Activities
Change in Net Assets                           $      30,551

Adjustments to reconcile changes in
net assets to net cash provided from
operating activities

Non-cash gain on mutual fund investments             (131,295)
Decrease in investment discount                       (15,242)
Decrease in pledges receivable                      (183,165)
Increase in accrued interest receivables               5,821
Decrease in accrued payroll and
annual leave                                          (17,465)
Decrease in accounts receivable                           135
Decrease in accounts payable                         (62,474)
Total Adjustments                                  (403,685)
Net Cash provided by (used by)
Operating Activities                       $        (373,134)
                                                                                                                              ANNUAL REPORT 2007




These financial statements should be read only in
connection with the accompanying notes to financial
statements.


                                                                 Cornice of the entryway of the Church of St. Nicholas the

                                                                                Wonderworker in Yaroslavl.

                                                                                                                              27
                                                   JAMES MADISON NATIONAL COUNCIL FUND

                                                   Notes to Financial Statements
                                                   SEPTEMBER 30, 2007




                                                                                                                           D. CONTRIBUTIONS AND REVENUE RECOGNITION
                                                   Note 1 – Reporting Entity and Summary of                                The Fund records as contribution revenue amounts received in
                                                   Significant Accounting Principles                                       the form of cash, promises or pledges to give. Unconditional
                                                                                                                           promises or pledges to give are recognized as a contribution
                                                   A. DESCRIPTION OF FUND                                                  receivable. Multi-year pledges or promises due over a period of
                                                   The James Madison National Council Fund (JMNC Fund) was                 time are discounted to their present value, based upon prevailing
                                                   initiated by the Librarian of Congress, accepted through a poll         interest rates, and recognized in the period of initial pledge.
                                                   vote by the Library of Congress Trust Fund Board in July 1989
                                                   and reaffirmed October 7, 1989. A gift of $100,000 from Robert          E. INCOME TAX
                                                   Gwinn, Chairman of the Board of Encyclopedia Britannica,                The JMNC Fund operates for the benefit of the Library of
                                                   established the Fund. The JMNC Fund is reported in the Library          Congress, which is an instrument of the United States and, as
                                                   of Congress gift and trust funds.                                       such, is not subject to income tax.
                                                       The James Madison National Council is an advisory board
                                                   of business people and philanthropists that contribute ideas,           F. INVESTMENT POLICY
                                                   expertise, and financial backing to support the Library’s               The Library of Congress Trust Fund Board determines the
                                                   collections and programs. The Council is open to persons from           investment policy for the Library’s trust funds. The policy
                                                   the private sector interested in advancing the Library’s outreach       provides three options for investment of the JMNC Fund funds:
                                                   mission. There are 94 members of the Council.
                                                       Significant accounting policies followed by the JMNC Fund           ■    a permanent loan with the U.S. Treasury
                                                   are presented below.                                                    ■    a pool of U.S. Treasury market-based securities
                                                                                                                           ■	   a private investment pool consisting of five stock funds and
                                                   B. BASIS OF ACCOUNTING AND PRESENTATION                                      one money market fund. The funds recommended by the
                                                   The Fund’s financial statements have been prepared on the                    Library of Congress Trust Fund Board’s investment
                                                   accrual basis in accordance with generally accepted                          committee and approved by the Board are:
                                                   accounting principles.                                                       • Vanguard Institutional Index Fund
                                                       The Fund adopted financial reporting standards applicable                • Vanguard Capital Opportunity Fund
                                                   to not-for-profit organizations. The financial statements are                • Fidelity Blue Chip Growth Fund
                                                   prepared in accordance with Financial Accounting Standards                   • Fidelity Capitol Appreciation Fund
                                                   No. 117, and recognizes net assets based on the existence of                 • Fidelity Growth Company Fund
                                                   applicable restrictions limiting their use.                                  • Fidelity Dividend Growth Fund
                                                       Temporarily restricted net assets result from donor-imposed
                                                   restrictions that permit the Fund to use or expend the assets              Investments in U.S. market-based securities are stated at
                                                   after the restriction has been satisfied. When a donor-imposed          cost net of any unamortized premium or discount, which
                                                   restriction is satisfied, that is, when a stipulated time restriction   approximates market value at September 30, 2007. The
                                                   ends or the purpose of the restriction is accomplished,                 permanent loan is an interest bearing par value investment
                                                   temporarily restricted net assets are reclassified to unrestricted      which equals the market value. Stock and money market
                                                   net assets and reported in the Statement of Activities as net           mutual funds are stated at current market value.
                                                   assets released from restrictions.
                                                       Unrestricted net assets result from the receipt of unrestricted
                                                   contributions, the expiration of donor-imposed restrictions on
                                                   contributions, and changes in other assets and liabilities. These       Note 2 – Investments
                                                   assets are available to the Fund for use in support of current
                                                   and future operations. The Library of Congress provides support         A. U. S. TREASURY
JAMES MADISON COUNCIL OF THE LIBRARY OF CONGRESS




                                                   services to the James Madison National Council. The cost of             An act of Congress approved March 3, 1925, and subsequently
                                                   these services are, by their nature, indirect, difficult to quantify,   amended, permits up to $10 million of trust funds to be invested
                                                   and financed with appropriated funds of the Library. To the             with the United States Treasury as a perpetual loan, at a floating
                                                   extent that these services are provided, they are not considered        interest rate, adjusted monthly, but no less than four percent per
                                                   operating expenses of the James Madison National Council.               annum. Other investments with U.S. Treasury were as follows:

                                                   C. USE OF ESTIMATES                                                     Investment                             Non-Marketable, Market Based
                                                   The preparation of the Fund’s financial statements in                                                                Government Securities
                                                   conformity with generally accepted accounting principles                Par                                                $   3,706,371
                                                   requires management to make estimates and assumptions                   Unamortized Premium                                $            0
                                                   that affect the amounts reported in the financial statements            Unamortized Discount                               $      (21,288)
                                                   and accompanying notes. Actual results could differ from                Amortized Cost                                     $   3,685,083
                                                   these estimates.




28
B. MUTUAL FUNDS
The JMNC Fund invested $500,000 in the growth and income              Note 5 – Imputed Financing for Cost Subsidies
pool (non-Treasury mutual fund investments) in 1996. Market
value of the growth and income pool as of September 30, 2007,         An adjustment of $31,921 was recorded as an imputed
totaled $925,011.                                                     financing source and a corresponding expense in the
    The net gain on investments of $131,295 consists of the           accompanying financial statements. This adjustment
following: $12,153 realized gain of mutual fund capital gains         recognizes the full cost of pensions and other health and life
distributions and $119,142 unrealized gain on the growth and          insurance benefits incurred by the Office of Personnel
income pool.                                                          Management during the employees’ active years of service.



                                                                      Note 6 – Expenses by Functional Classification
Note 3 – Pledges
                                                                      As permitted by SFAS No. 117, the Library has elected to
Contributions of unconditional promises to give (pledges) to          present its operating expenses by natural classification in its
the JMNC Fund are recognized as temporarily restricted                Statements of Activities for the period ending September 30,
revenue in the period received. They are recorded at their            2007. The functional breakdown of these expenses is as
present value using a market discount rate. Accretion of the          follows (see Schedule B):
discount in subsequent years is also recorded as contribution
revenue. Outstanding pledges of $1,271,693 at September 30,           Fiscal Year 2007 Expenses by Functional Classification               Amount
2007, were discounted through fiscal year 2017 at a market
                                                                      JMNC Fund Projects and Programs                             $       182,450
discount rate and are included in the statement of financial
                                                                      Members’ Specific Projects                                           181,329
position at their discounted present value of $880,740. The
                                                                      Supporting Activities – Fundraising                              1,488,424
amounts due in future years at their current discounted value
                                                                      Total Expenses                                              $    1,852,203
are: $89,357 in fiscal year 2008; $41,347 in 2009; $39,698 in
2010; $38,000 in 2011; $36,338 in 2012; and $636,000 in fiscal
year 2017. The Library regularly monitors the status of all
pledges and adjusts accordingly; therefore no allowance for
uncollectible pledges has been established.
                                                                      Note 7 – Retirement Plans

                                                                      Employees of JMNC Fund participate in two different
                                                                      retirement plans. Civil Service employees participate in the
Note 4 – Net Assets
                                                                      Civil Service Retirement System (CSRS) or the Federal
                                                                      Employees’ Retirement System (FERS). FERS is the system in
The JMNC Net Assets of $5,196,052 are classified as Unrestricted-
                                                                      effect for most employees hired after December 31, 1983.
Undesignated, Unrestricted-Council Designated for Projects or
                                                                          In fiscal year 2007, the JMNC Fund paid approximately
Temporarily Donor Restricted for Projects. Of this total amount,
                                                                      $57,096 to fund retirement benefits, excluding FICA taxes.
$2,060,104 is classified as Unrestricted-Undesignated. The
balance of $3,135,948 consisting of $180,441 (Unrestricted-
Council Designated for Projects) and $2,955,507 (Temporarily
                                                                      This information is an integral part of the accompanying financial statements.
Donor Restricted for Projects) is earmarked for initiatives such
as the rebuilding of Jefferson’s library, the purchase of overseas
rare publications and other rare publications that may become
available, international digitization of the Library’s collections,
a summer internship program, funds to make copies of films
for donors who give the original version to the Library, and an
amount that is restricted to be used at the discretion of the
Librarian of Congress for projects that arise that do not have
funding or the time horizon to raise money for the project.
    Ending Net Assets includes undelivered orders of $325,743
which are funds that have been obligated for budgetary
purposes for goods and services not yet received for JMNC
Fund operations and designated projects.
                                                                                                                                                       ANNUAL REPORT 2007




                                                                                                                                                       29
                                                   Independent Auditor’s Report





                                                                                                                 Summary

                                                                                                                 As stated in our opinion on the financial statements, we have
                                                   TO THE STEERING COMMITTEE JAMES MADISON
                                                   NATIONAL COUNCIL FUND                                         concluded that the Fund’s financial statements for the year
                                                                                                                 ended September 30, 2007, are presented fairly, in all material
                                                   We have audited the accompanying statement of financial       respects, in conformity with accounting principles generally
                                                   position of the James Madison National Council Fund (the      accepted in the United States of America.
                                                   Fund) as of September 30, 2007, and the related statements        Our consideration of internal control over financial reporting
                                                   of activities and cash flows for the year then ended. These   (including safeguarding of assets) disclosed no material
                                                   financial statements are the responsibility of the Fund’s     weaknesses.
                                                   management. Our responsibility is to express an opinion           The results of our tests of compliance with certain provisions
                                                   on these financial statements based on our audit.             of laws and regulations disclosed no instances of noncompliance
                                                                                                                 that are required to be reported herein under Government
                                                                                                                 Auditing Standards issued by the Comptroller General of the
                                                                                                                 United States.
                                                                                                                     The following sections discuss our opinion on the Fund’s
                                                                                                                 financial statements, our consideration of the Fund’s internal
                                                             OFFICE OF THE INSPECTOR GENERAL                     control over financial reporting, our tests of the Fund’s
                                                                                                                 compliance with certain provisions of applicable laws and
                                                                                                                 regulations, and management’s and our responsibilities.
                                                                                           March 14, 2008

                                                   To the Steering Committee
                                                   James Madison National Council Fund                           Opinion on Financial Statements

                                                                                                                 We have audited the accompanying statement of financial
                                                   We contracted with the independent public accounting          position of the Fund as of September 30, 2007, and the related
                                                   firm of Kearney & Company to audit the Fund’s financial       statements of activities and cash flows for the year then ended.
                                                   statements. The firm is responsible for the attached          These financial statements are the responsibility of the Fund’s
                                                   auditor’s report and the opinion and conclusions              management. Our responsibility is to express an opinion on
                                                   expressed in that report.                                     these financial statements based on our audit.
                                                                                                                     We conducted our audit in accordance with auditing
                                                   We reviewed Kearney & Company’s report and related            standards generally accepted in the United States of America;
                                                   documentation. Our review was not intended to enable          the standards applicable to financial audits contained in
                                                   us to express, and we do not express, an opinion on           Government Auditing Standards, issued by the Comptroller
                                                   the Fund’s financial statements, conclusions on internal      General of the United States; and Office of Management and
                                                   control, or compliance with laws and regulations. Our         Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                                                   review disclosed no instances in which Kearney & Company      Federal Financial Statements. Those standards require that
                                                   did not materially comply with U.S. generally accepted        we plan and perform the audit to obtain reasonable assurance
                                                   government auditing standards.                                about whether the financial statements are free of material
                                                                                                                 misstatement. An audit includes examining, on a test basis,
                                                                                                                 evidence supporting the amounts and disclosures in the
                                                                                                                 financial statements. An audit also includes an assessment of
JAMES MADISON COUNCIL OF THE LIBRARY OF CONGRESS




                                                                                  Karl W. Schornagel             the accounting principles used and significant estimates made
                                                                                  Inspector General              by management, as well as an evaluation of the overall
                                                                                                                 financial statement presentation. We believe that our audit
                                                                                                                 provides a reasonable basis for our opinion.
                                                                                                                     In our opinion, the financial statements referred to above
                                                                                                                 present fairly, in all material respects, the financial position of
                                                                                                                 the Fund as of September 30, 2007, and the changes in its net
                                                                                                                 assets and cash flows for the year then ended, in conformity
                                                                                                                 with accounting principles generally accepted in the United
                                                                                                                 States of America.




30
    Our audit was conducted for the purpose of forming an                   A material weakness is a significant deficiency, or
opinion on the financial statements referred to in the first            combination of significant deficiencies, that results in more
paragraph. The accompanying supplemental information                    than a remote likelihood that a material misstatement of the
contained in Schedules A and B is presented for the purpose             financial statements will not be prevented or detected by the
of additional analysis, and is not a required part of the basic         Fund’s internal control. Our consideration of internal control
financial statements. Such information has been subjected to            was for the limited purpose described in the second
the auditing procedures applied in the audit of the basic               paragraph of this report and would not necessarily identify all
financial statements. In our opinion, this information is fairly        deficiencies in internal control that might be significant
stated, in all material respects, in relation to the basic financial    deficiencies or material weaknesses. We noted no matters
statements taken as a whole.                                            involving internal control and its operations that we consider
                                                                        to be material weaknesses.


Internal Control over Financial Reporting
                                                                        Compliance and Other Matters
In planning and performing our audit, we considered the
Fund’s internal control over financial reporting by obtaining           The management of the Fund is responsible for complying with
an understanding of the design effectiveness of the Fund’s              laws and regulations applicable to the Fund. As part of obtaining
internal control, determining whether internal controls had             reasonable assurance about whether the Fund’s financial
been placed in operation, assessing control risk, and                   statements are free of material misstatement, we performed
performing tests of the Fund’s controls in order to determine           tests of its compliance with laws and regulations, including laws
our auditing procedures for the purpose of expressing an                governing the use of budgetary authority, laws, regulations,
opinion on the financial statements and not to provide an               and government-wide policies identified in Appendix E of
opinion on the internal controls. Accordingly, we do not                OMB Bulletin No. 07-04, and other laws, noncompliance with
express an opinion on the effectiveness of the Fund’s internal          which could have a direct and material effect on the
control over financial reporting.                                       determination of financial statement amounts. We limited our
    We limited our control testing to those controls necessary          tests of compliance to these provisions, and did not test
to achieve the following OMB control objectives that provide            compliance with all laws and regulations applicable to the Fund.
reasonable, but not absolute assurance, that: (1) transactions          However, providing an opinion on compliance with certain
are properly recorded, processed, and summarized to allow               provisions of laws and regulations was not an objective of our
the preparation of the financial statements in accordance with          audit and, accordingly, we do not express such an opinion.
accounting principles generally accepted in the United States               The results of our tests of compliance with the laws and
of America, and assets are safeguarded against loss from                regulations described in the preceding paragraph disclosed
unauthorized acquisition, use, or disposition; (2) transactions         no instances of noncompliance that are required to be
are executed in compliance with laws governing the use of               reported under Government Auditing Standards and OMB
budget authority, government-wide policies and laws                     Bulletin No. 07-04.
identified in Appendix E of OMB Bulletin No. 07-04, and other
laws and regulations that could have a direct and material              This report is intended solely for the information and use of the
effect on the financial statements; and (3) transactions and            Steering Committee, management of the Fund, and Congress,
other data that support reported performance measures are               and is not intended to be and should not be used by anyone
properly recorded, processed, and summarized to allow the               other than these specified parties.
preparation of performance information in accordance with
criteria stated by management. We did not test all internal
controls relevant to the operating objectives broadly defined
by the Federal Managers’ Financial Integrity Act of 1982.
    A control deficiency exists when the design or operation of
a control does not allow management or employees, in the                February 27, 2008

normal course of performing their assigned functions, to                Alexandria, Virginia

prevent or detect misstatements on a timely basis. A significant
deficiency is a control deficiency, or combination of control
deficiencies, that adversely affects the Funds’s ability to initiate,
authorize, record, process, or report financial data reliably, in
accordance with generally accepted accounting principles
such that there is more than a remote likelihood that a
misstatement of the Fund’s financial statements that is more
                                                                                                                                            ANNUAL REPORT 2007




than inconsequential will not be prevented or detected by the
Fund’s internal control.




                                                                                                                                            31
                                                   JAMES MADISON NATIONAL COUNCIL FUND

                                                   Supplemental Information



                                                   SCHEDULE A
                                                   Schedule of Net Assets Available for Designation


                                                   Total Net Assets                            $      5,196,052

                                                   Net assets restricted by donors
                                                   for projects                                     (2,955,507)

                                                   Net assets designated by the
                                                   Council for projects                                (180,441)

                                                   Total restricted or designated
                                                   net assets                                       (3,135,948)

                                                   Net Assets Available for Designation        $ 2,060,104




                                                   SCHEDULE B
                                                   Schedule of Expenditures
                                                                                                             Fund         Members’        Supporting
                                                                                                      Projects and         Specific       Activities —
                                                                                                         Programs          Projects       Fundraising           Total


                                                   Personnel costs                              $         81,324     $   (234,293)    $     836,623      $   683,654

                                                   Travel and transportation and
                                                   subsistence/support persons                                198                0            52,013           52,211

                                                   Other services                                            946            2,920            62,585           66,451

                                                   Books and library materials                                  0          80,064              1,036          81,100

                                                   Exhibit Opening Events, Receptions,
                                                   and Madison Council Meetings                            3,096            61,245          134,296          198,637

                                                   Contractual and personnel services                     96,349           271,393          385,164          752,906

                                                   Office supplies, printing and materials                   537                 0            16,707          17,244
JAMES MADISON COUNCIL OF THE LIBRARY OF CONGRESS




                                                   Totals                                       $       182,450      $     181,329    $   1,488,424      $ 1,852,203




32
